1 of 2
NO.

IN THE
SUPREME COURT OF THE UNITED STATES

ISRAEL WASHINGTON,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.

On Petition for Writ of Certiorari to the
United States Court of Appeals for the Ninth Circuit

CERTIFICATE OF SERVICE

I, Israel Washington, hereby certify that on this __ day
of November, 2020, I hand-delivered a true and correct copy of
these documents to the U.S. Penitentiary Prison Mailroom Staff,
as provided by the "MAILBOX RULE" pursuant to HOUSTON v. LACK,
487 U.S. 266 (1988), to be U.S. Mailed by the method indicated
to all counsel of record listed below:
(U.S. FIRST CLASS MAIL)
SOLICITOR GENERAL OF THE UNITED STATES
ROOM 5616
DEPARTMENT OF JUSTICE
950 PENNSYLVANIA AVENUE, N.W.
20530-0001
WASHINGTON, D.C.

2 of 2
I declare under penalty

of perjury pursuant to the laws

of the United States, Title 28 U.S.C. ยง 1746 that the foregoing
is true and correct.

k

Israel Washington

